No. 20-975
In the

Supreme Court of the United States
__________________

FREDDIE EUGENE OWENS,
Petitioner,
v.
BRYAN P. STIRLING, COMMISSIONER, SOUTH CAROLINA
DEPARTMENT OF CORRECTIONS; AND LYDELL
CHESTNUT, DEPUTY WARDEN OF BROAD RIVER
CORRECTIONAL INSTITUTION SECURE FACILITY
Respondents.
__________________
On Appeal from the United States District Court for
the District of South Carolina

__________________
BRIEF IN OPPOSITION
__________________
ALAN WILSON
Attorney General of
South Carolina
DONALD J, ZELENKA
Deputy Attorney
General
J. ANTHONY MABRY
Senior Assistant
Attorney General

MELODY J. BROWN
Counsel of Record
Senior Assistant Deputy
Attorney General
Post Office Box 11549
Columbia, South Carolina
29211
(803) 734-6305
mbrown@scag.gov
Attorneys for Respondents

February 22, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
*CAPITAL CASE*
PETITIONER’S QUESTIONS PRESENTED
1. What is the standard to be used by federal courts
of appeals for determining whether the underlying
constitutional claim is “substantial” under Martinez,
and how does it relate to the determination that a
petitioner has met the requirements to obtain a COA,
under 28 U.S.C. § 2253 (c) and as described by this
Court in Miller-El v. Cockrell, 537 U.S. 322, 336
(2003)?
2. Under the Martinez standard, is it proper for
courts of appeals determining the substantial quality
of the underlying constitution claim to rely on
imbalanced consideration of the record, including
ignoring evidence in the record in support of a
petitioner’s underlying constitutional claim – as
happened in Mr. Owen’s case?
RESPONDENTS’ COUNTERSTATMENT
OF ISSUES ON APPEAL
1. Did this Court intend its carefully crafted
narrow exception in Martinez v. Ryan to circumvent
full appellate review and mandate an automatic default
to a full evidentiary hearing anytime a court of appeals
initially finds a basis to grant a certificate of
appealability?
2. Did this Court intend its carefully crafted
narrow exception in Martinez v. Ryan to displace all
statutory restrictions imposed by 28 U.S.C. § 2254 in
review of the established state court record, or the type

ii
of evidence or claim that may be developed in federal
habeas when the factual basis has not been developed?

iii
LIST OF PARTIES
Respondents agree with Petitioner Owens that the
caption generally reflects the parties to the proceeding;
however, on or about July 11, 2019, Death Row inmates
were relocated to Broad River Correctional Institution
from Kirkland Correctional Institution. Pursuant to
Supreme Court Rule 35(3), Respondents have listed
Lydell Chestnut, Deputy Warden of Broad River Road
Correctional Secure Facility, as the correct party
warden in this matter.
STATEMENT OF RELATED PROCEEDINGS
Respondents
proceedings:

identify

the

following

related

Owens v. Stirling, 967 F.3d 396 (4th Cir. 2020)(appeal
from district court);
Owens v. Stirling, No. 0:16-CV-02512-TLW, 2018 WL
2410641 (D.S.C. May 29, 2018) (order granting motion
for summary judgment and denying habeas petition);
Owens v. Stirling, No. 0:16-CV-2512-TLW-PJG, 2018
WL 3104276 (D.S.C. Jan. 12, 2018) (report and
recommendation);
State v. Owens, 378 S.C. 636, 664 S.E.2d 80
(2008)(direct appeal action affirming death sentence).

iv
TABLE OF CONTENTS
PETITIONER’S QUESTIONS PRESENTED. . . . . . i
RESPONDENTS’ COUNTERSTATEMENT OF
ISSUES ON APPEAL . . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . iii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
BRIEF IN OPPOSITION . . . . . . . . . . . . . . . . . . . . . . 1
CITATIONS TO OPINIONS BELOW. . . . . . . . . . . . 3
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 6
A. Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
B. State Court Proceedings . . . . . . . . . . . . . . . . . 7
C. State Post-Conviction Relief Proceedings . . . . . 11
D. District Court Federal Habeas Proceedings . . . 12
E. Attempted Successive Post-Conviction Relief
Action and Lifting of Stay . . . . . . . . . . . . . . . 13
F. Resumption of District Court Habeas
Proceedings . . . . . . . . . . . . . . . . . . . . . . . . . . 13
G. Fourth Circuit Court of Appeals Review . . . 16
STATEMENT OF FACTS . . . . . . . . . . . . . . . . . . . . 19

v
REASONS WHY CERTIORARI SHOULD BE
DENIED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
I. This Court’s Martinez exception requirement
that a petitioner show a substantial claim does
not carry a guarantee of a hearing. In fact, this
Court set out that a state may rely on the facts
of record as one reason the exception would not
be over-burdensome and intrusive to the states
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
A. The Fourth Circuit correctly found the
substantial claim requirement may overlap
in theory with the certificate of appealability
standard, but the opportunity granted
differs. The certificate is a preliminary
determination to grant jurisdiction to review.
It is the gateway to appellate review, not a
default to an evidentiary hearing . . . . . . . . . 24
B. An evidentiary hearing is not the only
mechanism for receiving new evidence in
district court. The Rules Governing Section
2254 Cases already provide a method to
submit materials in support of a Martinez
argument. Here, the District Court of South
Carolina allowed Owens to present new
material through affidavits. . . . . . . . . . . . . . 27
C. 28 U.S.C. § 2254(e) limits development of
facts to claim involving innocence when it is
determined that the petitioner failed to
demonstrate diligence . . . . . . . . . . . . . . . . . . 28

vi
D. Owens’s demand for additional habeas
proceedings “aggravate[s] the harm to
federalism that federal habeas review
necessarily causes,” and frustrates the
important need for finality . . . . . . . . . . . . . 30
II. Owens’s claims lack a factual basis. The state
court records show there is no merit t o h i s
argument that counsel missed “red flags” to
prompt the need for further dev e l o pm ent of
neuroimaging evidence . . . . . . . . . . . . . . . . . . . . 32
A. The state court record establishes that
counsel and his experts were aware of
imaging evidence from Dr. Evans, but did not
wish to present Dr. Evans for specific
credibility and reliability concerns. The state
court not only found the strategy reasonable,
Owens did not contest the reasonableness of
the finding in his habeas petition. . . . . . . . . 33
B. The medical records reviewed by trial
counsel’s experts are a superior source to
determine whether Owens had been
diagnosed, treated, or had a history of
seizures, and those records do not support
such diagnosis or treatment. Thus, there
could be no missed “red flag” based on the
failure to discover a history that did not
exist. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

vii
TABLE OF AUTHORITIES
CASES
Ayestas v. Davis,
138 S.Ct. 1080 (2018) . . . . . . . . . . . . . . . . . . . . . 30
Buck v. Davis,
137 S.Ct. 759 (2017) . . . . . . . . . . . . . . . . . . . . . . 26
Bixby v. Stirling,
No. 4:17-CV-954-BHH, 2020 WL 1527061
(D.S.C. Mar. 31, 2020) . . . . . . . . . . . . . . . . . . . . 33
Buckman v. Hall,
2009 WL 204403 (D. Or. Jan. 23, 2009) . . . . . . . 28
Miller-El v. Cockrell,
537 U.S. 322 (2003). . . . . . . . . . . . . . . . . . . . . 1, 26
Cristin v. Brennan,
281 F.3d 404 (3d Cir. 2002) . . . . . . . . . . . . . . . . 28
Cullen v. Pinholster,
563 U.S. 170 (2011). . . . . . . . . . . . . . . . . . . . . . . 31
Dansby v. Hobbs,
766 F.3d 809 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Davila v. Davis,
137 S. Ct. 2058 (2017). . . . . . . . . . . . 23, 24, 30, 31
Fielder v. Stevenson,
2013 WL 593657 (D.S.C. Feb. 14, 2013) . . . 28, 30
Harrington v. Richter,
562 U.S. 86 (2011). . . . . . . . . . . . . . . . . . . . . . . . 40

viii
Lafler v. Cooper,
566 U.S. 156 (2012). . . . . . . . . . . . . . . . . . . . . . . 27
Mackey v. United States,
401 U.S. 667 (1971). . . . . . . . . . . . . . . . . . . . . . . 31
Martinez v. Ryan,
566 U.S. 1 (2012). . . . . . . . . . . . . . . . . . . . . passim
Miller-El v. Cockrell,
537 U.S. 322 (2003). . . . . . . . . . . . . . . . . . . . . 1, 26
Robertson v. State,
795 S.E.2d 29 (S.C. 2016) . . . . . . . . . . . . . . . . . . 12
Runningeagle v. Ryan,
825 F.3d 970 (9th Cir. 2016). . . . . . . . . . . . . . . . 28
Ryan v. Schad,
570 U.S. 521 (2013). . . . . . . . . . . . . . . . . . . . . . . 31
Slack v. McDaniel,
529 U.S. 473 (2000). . . . . . . . . . . . . . . . . . . . . . . 26
State v. Owens (Owens I),
552 S.E.2d 745 (S.C. 2001) . . . . . . . . . . . . . . . 7, 20
State v. Owens (Owens II),
607 S.E.2d 78 (S.C. 2004) . . . . . . . . . . . . . . . . . . . 8
State v. Owens (Owens III),
664 S.E.2d 80 (S.C. 2008),
cert. denied, 129 S.Ct. 1004 (2009) . . . . . . . . . . . 11
Stone v. State,
798 S.E.2d 561 (S.C. 2017) . . . . . . . . . . . . . . . . . 36

ix
Strickland v. Washington,
466 U.S. 668 (984). . . . . . . . . . . . . . . . . . . . . . . . 24
Teague v. Lane,
489 U.S. 288 (1989). . . . . . . . . . . . . . . . . . . . . . . 31
Trevino v. Thaler,
569 U.S. 413 (2013). . . . . . . . . . . . . . . . . . . . . . . 23
Williams v. Taylor,
529 U.S. 420 (2000). . . . . . . . . . . . . . . . . . . . . . . 30
Williams v. Woodford,
384 F.3d 567 (9th Cir. 2004). . . . . . . . . . . . . . . . 29
Wong v. Belmontes,
558 U.S. 15 (2009). . . . . . . . . . . . . . . . . . . . . . . . 39
Woodford v. Garceau,
538 U.S. 202 (2003). . . . . . . . . . . . . . . . . . . . . . . 25
CONSTITUTION AND STATUTES
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 4
28 U.S.C. § 2253(c) . . . . . . . . . . . . . . . . . . . . . . . . . i, 4
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . i, 4, 31
28 U.S.C. § 2254 (e)(1) . . . . . . . . . . . . . . . . . . . 2, 4, 33
28 U.S.C. § 2254 (e)(2) . . . . . . . . . . . . . . . . 2, 5, 28, 30
28 U.S.C. § 2254(e) . . . . . . . . . . . . . . . . . . . . . . . 29, 30
S.C. Code Ann. § 17-27-160 (B) . . . . . . . . . . . . . . . . 12

1
BRIEF IN OPPOSITION
Now nearing the end of federal habeas review of his
state conviction and sentence of death, Owens claims a
technical entitlement to a reset of his federal habeas
action. Owens presented a defaulted, never before
raised claim of ineffective assistance of trial counsel in
the district court. The district court rejected Owen’s
argument that Martinez v. Ryan, 566 U.S. 1 (2012)
would allow him to excuse the default, finding, on the
strength of the established state court record, that the
offered claim was not substantial. Owens sought an
appeal, and the Fourth Circuit granted a certificate of
appealability after a preliminary review of his brief.
Owens argues because the Fourth Circuit granted a
certificate to review his Martinez argument that he
automatically met the required showing that his
ineffective-assistance-of-counsel claim is substantial.
From there, Owens concludes he must be afforded an
evidentiary hearing in district court. His logic is
flawed and his conclusion unsound.
First, Owens seeks additional proceedings on
semantics not merit. Had the Fourth Circuit simply
modified its certificate after full briefing and review,
which it could do, Owens would have no argument.
Even so, he leaves this Court with a stark and
unpalatable choice: to categorically expand Martinez
relief, or categorically deny appeal on Martinez issues.
Neither course is warranted nor defendable in equity or
fairness.
Second, the AEDPA restrictions still control.
Martinez is an equitable rule meant to be narrow. It
did not guarantee a hearing. It did not lift all AEDPA

2
restrictions, nor set aside the rules for Section 2254
cases. 28 U.S.C. § 2254 (e)(1) still requires a federal
court to presume relevant fact-findings to be correct,
and 28 U.S.C. § 2254 (e)(2) still limits factual
development for the first time in habeas to claims
affecting the finding of guilt. Rule 7, Rules Governing
Section 2254 Cases in the United States District Courts
continues to allow for submission of affidavits and
other materials, and Rule 8 of those same rules still
provides that material submitted under Rule 7 along
with the state court records must be reviewed “to
determine whether an evidentiary hearing is
warranted.” Owens seeks to avoid all of these
requirements and provisions and cut to the chase of an
evidentiary hearing – a path not created by Martinez or
the AEDPA.
Third, Owens’s position fails factually. To make his
complaint that he did not have a fair opportunity to
present his claim in district court, he fails to
acknowledge the proceedings offered in the district
court. The district court allowed time and funding for
investigation, and allowed Owens to submit affidavits
in support of his argument to excuse the default.
However, his state court record – which necessarily
followed him into federal court – could not be ignored.
Owens’s assertion that the lower federal courts made
an “imbalanced” review and “ignor[ed]” evidence, (see
Petition at 25, 32, and 33), is rebuffed by the record
itself – no interpretation needed. The district court did
not abuse its discretion in denying further proceedings
in an evidentiary hearing. Owens’s further argument
that third sentencing counsel (and their experts), and
collateral counsel (and their experts), failed to

3
recognize the need to develop specific neuroimaging
evidence of “brain damage” in light of Owens’s medical
history was not deficient performance but the result of
well-informed counsel (and their experts) choosing a
different direction. Owens’s “red flag” argument is
more “red herring” than flag. He parses and isolates a
note in a single administrative prison institutional
movement document for support that a telling
reference to seizure activity and treatment was missed.
However, the state court record shows that trial
counsel, and, critically, trial counsel’s experts, relied on
the actual, full medical records that unquestionably
debunk that theory.
At any rate, Owens shows no basis to allow him to
secure a district court evidentiary hearing by virtue of
being granted full appellate proceedings. The petition
should be denied.
CITATIONS TO OPINIONS BELOW
The district court’s May 29, 2018 order denying
habeas relief is unreported, but available at 2018 WL
2410641 (D.S.C. May 29, 2018), and is reproduced in
the petition appendix. (App. 58-168). The district
court’s November 1, 2018 order denying Owens’s Rule
59(e) motion is unreported, but available at 2018 WL
5720445 (D.S.C. Nov. 1, 2018). The July 22, 2020,
published opinion of the Fourth Circuit affirming the
district court’s denial of habeas corpus relief is reported
at 967 F.3d 396 (4th Cir. 2020). Like the district court
order, the Fourth Circuit opinion is similarly
reproduced in the petition appendix. (App. 1-56).

4
JURISDICTION
The Fourth Circuit entered its opinion affirming the
denial of habeas relief on July 22, 2020. The Court of
Appeals denied Owens’s timely petition for rehearing
on August 18, 2020. (App. 57). In light of this Court’s
COVID order extending the time for filing, the petition
was timely filed on January 15, 2020. Owens invokes
this Court’s jurisdiction pursuant to 28 U.S.C.
§ 1254(1). (Petition at 1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Owens asserts this case involves the Sixth
Amendment to the United States Constitution, which
provides: “In all criminal prosecutions, the accused
shall enjoy the right ... to have the Assistance of
Counsel for his defence.” U.S. Const. amend. VI.
Owens also asserts that the Eighth Amendment cruel
and unusual punishment prohibition, as applied to the
states through the Fourteenth Amendment, is also
involved, along with the certificate of appealability
provisions found in 28 U.S.C. § 2253(c). (Petition at 12).
Respondents assert this case additionally involves
portions of 28 U.S.C. § 2254 and the Rules Governing
Section 2254 Cases in the United States District Courts,
including:
28 U.S.C. § 2254 (e)(1), which provides:
In a proceeding instituted by an application for
a writ of habeas corpus by a person in custody
pursuant to the judgment of a State court, a

5
determination of a factual issue made by a State
court shall be presumed to be correct. The
applicant shall have the burden of rebutting the
presumption of correctness by clear and
convincing evidence.
And 28 U.S.C. § 2254 (e)(2), which provides:
(2)
If the applicant has failed to develop the
factual basis of a claim in
State court
proceedings, the court shall not hold an
evidentiary hearing on the claim unless the
applicant shows that –
(A)

the claim relies on –
…
(ii) a factual predicate that could not have
been previously discovered through the
exercise of due diligence; and

(B)

the facts underlying the claim would be
sufficient to establish by clear and
convincing evidence that but for
constitutional error, no reasonable
factfinder would have found the
applicant guilty of the underlying
offense.

(emphasis added).
And Rule 7(a) and (b), Rules Governing Section 2254
Cases in the United States District Courts:
(a) In General. If the petition is not dismissed,
the judge may direct the parties to expand the
record by submitting additional materials

6
relating to the petition. The judge may require
that these materials be authenticated.
(b) Types of Materials. The materials that
may be required include letters predating the
filing of the petition, documents, exhibits, and
answers under oath to written interrogatories
propounded by the judge. Affidavits may also be
submitted and considered as part of the record.
And Rule (8)(a), Rules Governing Section 2254 Cases
in the United States District Courts:
(a) Determining Whether to Hold a
Hearing. If the petition is not dismissed, the
judge must review the answer, any transcripts
and records of state-court proceedings, and any
materials submitted under Rule 7 to determine
whether an evidentiary hearing is warranted.
STATEMENT OF THE CASE
A. Introduction.
Owens’s mental health and function was
investigated and considered at all three of his
sentencing proceedings.
Trial counsel had the
information from the two prior investigations and
sentencing proceedings in preparation for the third. In
particular, trial counsel had similar imaging evidence
available from the second sentencing, but strategically
chose to present a less controversial defense supported
by the work of qualified, experienced, and
knowledgeable experts. The following state court
history was before the district court and Fourth
Circuit.

7
B. State Court Proceedings.
Owens was convicted and sentenced to death three
times in the South Carolina courts for the November 1,
1997 murder of Ms. Irene Graves. Ms. Graves was shot
and killed during an armed robbery of the convenience
store where she worked. Owens was indicted for
murder, armed robbery, use of a firearm in the
commission of a violent crime, and criminal conspiracy.
Owens’s first proceeding was a jury trial in
February 1999. Owens was represented by John M.
Rollins, Jr. and Karl B. Allen. On February 15, 1999,
the jury convicted as charged. State v. Owens (Owens
I), 552 S.E.2d 745, 753 (S.C. 2001). Sentencing
proceedings did not begin until February 17, 1999. Id.
In the interim, Owens brutally killed a fellow inmate at
the detention center, Christopher Lee, and gave a
detailed confession which was admitted in the
sentencing proceedings. Id., at 754-55. The Supreme
Court of South Carolina reversed and ordered a new
sentencing proceeding finding “defense counsel had
little, if any, meaningful opportunity to investigate the
circumstances surrounding Lee’s death,” and the
failure to grant a continuance was error. Id., at 759.
In his second sentencing proceeding, Owens was
represented by new counsel, Alex Kinlaw, Jr. and Steve
W. Sumner. Owens waived jury sentencing, opting for
a bench trial. He was again sentenced to death on
February 14, 2003. The Supreme Court of South
Carolina again reversed sentencing in the direct
appeal, finding that the trial judge had erred in his
colloquy with Owens regarding waiver of the right to

8
jury sentencing. State v. Owens (Owens II), 607 S.E.2d
78, 80 (S.C. 2004).
Owens returned to circuit court for resentencing,
and again received different counsel, Everett P.
Godfrey Jr., and Kenneth C. Gibson. Owens this time
chose a jury for resentencing.
Counsel, armed with the prior investigations, and
keenly aware of what had not worked in prior
sentencing proceedings, charted their own course with
their own experts freshly reviewing Owens’s
background and mental status. (J.A. 2147-48). Counsel
faced a record with overwhelming aggravation, i.e, the
circumstances of Ms. Graves’s murder, the separate
torture murder of Lee, Owens’s criminal record and his
significant number of major prison incidents that
included stabbings and assaults on prison guards, staff,
and inmates, but counsel saw the separate murder as
particularly harmful to their case. (See also J.A. 2147,
“the elephant in the room that you could never get rid
of was the homicide at the jail. It was going to come in.
There was no possible way I could keep it out. That is
a bad fact case.”). Even so, counsel crafted a theory
and presented a robust mitigation case. Counsel “set
about trying to find some way to distinguish Freddie
from the first two cases,” and decided to place emphasis
on background, and Owens’s request for treatment to
calm his anger and violent tendencies. (J.A. 2147-49).
In essence, counsel wished to present who “Freddie
Owens was then as opposed to […who…] Freddie
Owens is now or in the process of now.” (J.A. 2149).
The re-sentencing proceeding began in November
2006. Counsel presented a biopsychosocial presentation

9
through social worker and professor Marjorie
Hammock who chronicled Owens’s life and family
history, patterns of violence and his risk factors. (J.A.
1542-60).
Counsel also presented Owens’s third grade teacher,
Fain Maag, who testified that Owens was small in
stature and endured playground bullying, which she
tried to stop; that he had learning difficulties which she
actively helped him to overcome; and, that she had
even visited his home where she observed a lack of
food. She related that Owens was encouraged to
violence, sometimes locked out of his home and told to
fight. She testified she tried to help Owens. (J.A.
1562-65).
Counsel presented Dr. Thomas Cobb, a forensic
psychiatrist, who testified that he treated Owens in the
South Carolina Department of Corrections and
diagnosed him with impulse control disorder and
anxiety disorder. (J.A. 1592-93). He testified Owens
had asked for help, which Dr. Cobb found “interesting”
the fact that Owens “could recognize that he had some
difficulties and wanted to have those treated.” (J.A.
1588). Dr. Cobb opined that Owens had calmed as a
result of medication and he predicted Owens would
continue to improve and do well in a prison
environment with continued treatment and as a
natural part of getting older. (J.A. 1595-96).
Counsel also called forensic psychiatrist Dr. Donna
Schwartz-Watts, who had evaluated “[o]ver seventy”
capital defendants at the time of Owens’s resentencing.
(J.A. 1608).
She testified that she made a
comprehensive evaluation including review of records

10
from the crime, medical treatment history, juvenile and
adult incarceration records, local hospital records, and
also consulted with prior doctors and others to aid in
her assessment, and also interviewed Owens for
approximately “ten hours” over “three separate
occasions.” (J.A. 1609-10). She also requested a
neuropsychological evaluation.
(J.A. 1611).
Ultimately, she diagnosed Owens with chronic
depression, attention deficit disorder, and antisocial
personality disorder. (J.A. 1626-30).
Counsel also presented neuropsychologist Dr. Tora
Brawley. She explained “a neuropsychologist looks at
brain behavior relationships,” and that her role was to
administer “a battery of testing,” and “perform a
clinical interview.” (J.A. 1573). She further explained
that “where an MRI gives you a picture of the brain,
this battery of tests that I do tell you how the different
areas of the brain are functioning, how they are
working.” (J.A. 1573).1 She testified she was brought
in by Dr. Schwartz-Watts to complete an evaluation.
1 Dr. Brawley confirmed that she did “a full battery of tests,” a
clinical interview, and records review in this case, and noted even
speaking with Ms. Maag, Owens’s former teacher. (See J.A. 157480). While Owens is correct that she described her role as
“limited,” (see Petition at 5), his context is wrong. The limited role
she described was the neuropsychological workup she was asked
to perform: “What I was about to say is my scope was very limited.
In this proceeding, in this evaluation, I was asked to look at his
brain function, you know, present and past too.” (J.A. 1580). (See
also J.A. 1583, “I’m just a small part, and Dr. Watts takes my
results and everything else and puts it together and goes from
there.”; J.A. 2403-04, responding “correct” to the characterization
of her “primary role” being to “present the findings from the
neuropsych battery.”).

11
(J.A. 1574). She opined that “there are some select
areas of deficit in Mr. Owens[‘s] brain and he does have
a history of lifelong problems with brain function and
also psychiatric issues.” (J.A. 1581). She noted that
his IQ had improved over the years and observed “that
he has been self-teaching, you know, vocabulary,
general knowledge. He’s been doing a lot of reading
and bettering himself and it actually shows on his IQ
scores.” (J.A. 1576). When asked if she found anything
“that rises to the level of any mental illness or brain
malfunction[,]” she responded, “[n]ot from a
neuropsychological standpoint.” (J.A. 1583).
At the conclusion of the proceedings, the jury
returned a sentence of death, which was upheld on
direct appeal. State v. Owens (Owens III), 664 S.E.2d
80 (S.C. 2008), cert. denied, 129 S.Ct. 1004 (2009).
C. State Post-Conviction Relief Proceedings.
On January 29, 2009, Owens began a postconviction relief (PCR) action. Keir Weyble and Emily
Paavola were appointed to represented Owens. 2 After

2 The Fourth Circuit noted that Mr. Weybe worked at Cornell Law
School, and had previously “worked on Owens’s petition for
certiorari,” and also noted co-counsel’s ties to Cornell as a fellow in
its Death Penalty Project. Owens, 967 F.3d at 408. This
underscores the heightened qualification requirements imposed by
South Carolina for representation of indigent capital defendants.
South Carolina provides for the appointment of two attorneys, “at
least one attorney appointed pursuant to section 17-27-160(B)
must have either (1) prior experience in capital PCR proceedings,

12
case development and an evidentiary hearing, relief
was denied on February 13, 2013. (J.A. 3683-3713).
PCR counsel did not raise a failure-to-pursueneuroimaging claim. The PCR focus was largely on
failure to effectively present mitigation based on
trauma and risk factors during the developmental
period. (See J.A. 3348-84 and 3409). Owens did assert,
however, that his trial counsel was ineffective in failing
to present Dr. Jim Evans, who had testified in a prior
sentencing, based on a form of neuroimaging, that
Owens had “brain dysfunction and difficulties with
attention and impulse control.” (J.A. 1977). The state
court found reasonable counsel’s decision to not present
Dr. Evans based on credibility and reliability issues
with his testing. (J.A. 3702).
Owens’s petition for a writ of certiorari filed in the
Supreme Court of South Carolina was denied on June
17, 2015, and his petition for rehearing was denied on
July 23, 2015.
D. District Court Federal Habeas Proceedings.
Owens then entered federal district court on a
motion to stay execution and appoint counsel filed July
27, 2015. John Delgado and Hank Ehlies represented
Owens in the federal proceedings. Counsel filed a
petition on July 11, 2016, which they amended on
September 8, 2016. Owens also filed a motion to stay
the action in order to return to state court to attempt to

or (2) capital trial experience and capital PCR training or
education.” Robertson v. State, 795 S.E.2d 29, 36 (S.C. 2016); see
also S.C. Code Ann. § 17-27-160 (B). The State also provides
funding for experts and/or other hearing preparation needs.

13
exhaust certain claims in a successive collateral action.
Respondents objected, asserting the successive action
would be procedurally barred from review on the
merits under state rules. On October 18, 2016, the
Magistrate, over objection, stayed the action. (ECF No.
124).
E. Attempted Successive Post-Conviction Relief
Action and Lifting of Stay.
The successive state action was dismissed as
untimely and improperly successive by Order filed
April 10, 2017. The federal court lifted the stay on
April 27, 2017, (ECF No. 146), and federal proceedings
resumed.
F. Resumption of
Proceedings.

District

Court

Habeas

Several claims were raised, but the one at issue
here was presented through Ground Seven. Owens
“claim[ed] that sentencing counsel were ineffective for
“failing to investigate, develop and present objective
and scientific evidence of structural and functional
brain damage resulting from early childhood trauma”
which “materially limit[s]” Owens’s “ability to make
informed decisions, learn from past behavior, and
control impulses....” (J.A. 4021). Owens presented, and
the court accepted, two new reports in support of his
claim, a neuroimaging analysis by Dr. Ruben Gur,
Ph.D., and a “neuropsychological review and
evaluation” by Dr. Stacey Wood, Ph.D. (J.A. 5360-61
and 5384). The magistrate reviewed the entirety of the
state court record – including specifically how the
defense fit together in sentencing with the findings of

14
Dr. Cobb, Dr. Schwartz-Watts and Dr. Brawley – to
conclude:
…Owens has failed to show that sentencing
counsel’s investigation was unreasonable, as the
record shows that sentencing counsel
investigated Owens’s mental health and brain
function, and they employed multiple experts to
help them do so. There are no indications that
any of those experts advised sentencing counsel
to obtain neuroimaging, and the conclusion of
sentencing counsel’s retained neuropsychologist
was that Owens did not have any significant
brain dysfunction.
(J.A. 5364-65). Further, the magistrate found “Dr.
Wood’s claim that Owens was diagnosed with a seizure
disorder is highly questionable when viewed with the
remainder of the record before th[e] court.” (J.A. 5365
n. 24). Dr. Wood’s report did not specify where in
“prison records” he “was diagnosed with a seizure
disorder,” but the magistrate noted that the Depakote
prescription she referenced was to stabilize mood. (J.A.
5365 n. 24). Further, the magistrate observed that
“[m]ultiple medical professionals examined Owens and
his medical records in preparation for the third
sentencing proceeding, and none of them indicated that
Owens had a history of a seizure disorder.” (J.A. 5365
at 24).
Additionally, the magistrate observed that Dr.
Evans’s prior imaging was available to counsel:
“sentencing counsel had at their disposal very similar
evidence to that which Owens now asserts sentencing
counsel should have pursued further—they had results

15
from a form of neuroimaging that showed brain
abnormalities and a neuropsychologist who could
attribute some of Owens’s behavioral characteristics to
those abnormalities.” (J.A. 5367-68).
The district court accepted the recommendation,
concurring with the conclusion counsel followed a
sound strategy. (J.A. 5792). The court observed counsel
“presented the testimony of three mental health
experts—Drs. Cobb, Brawley, and SchwartzWatts—who evaluated [Owens] and could testify
regarding his past, present, and future.” (J.A. 5792).
And further, “[n]othing in the record indicates that any
of these experts advised counsel to obtain
neuroimaging, and Dr. Brawley’s evaluation resulted in
her concluding that Owens did not have any significant
brain dysfunction.” (J.A. 5792). The district court also
reasoned that counsel “had in their possession evidence
very similar to what Owens now says they should have
obtained” which was the prior evidence from Dr. Evans.
(J.A. 5793). But “sentencing counsel made a strategic
decision to not use that evidence and instead pursue a
different mitigation angle, which is a decision that is
entitled to great deference.” (J.A. 5793). The district
court concluded “the underlying ineffective assistance
claim for this ground fails on the merits and Owens
therefore cannot rely on Martinez to overcome the
procedural default.” Id.
The district court also denied Owens’s request for
an evidentiary hearing to further expand the record,
noting the court did accept and consider his affidavits.
Moreover, in ruling on the Respondents’ motion for
summary judgment, the court noted it had viewed the

16
assertions in the light most favorable to Owens. (J.A.
5811-12). The court rejected Owens’s argument that
his presentation by affidavit did not reflect “a complete
statement of the evidence to be developed during an
evidentiary hearing” as cause for a hearing. (J.A. 5812
n.22). The district court – questioning whether a
petitioner could claim his own affidavits to be
insufficient as a basis to seek an evidentiary hearing,
nevertheless found the affidavits submitted were
sufficient for evaluation of the claim. (J.A. 5812 n. 22).
Also in the note, the court reasoned, as to the fairness
to Owens in the evaluation of his submissions, that “an
evidentiary hearing could only have weakened his
petition” by subjecting his witnesses to crossexamination that could “have called into question their
opinions and factual statements.” (J.A. 5812 n. 22).
G. Fourth Circuit Court of Appeals Review.
Without full briefing and consideration, the Fourth
Circuit granted a certificate of appealability on the
defaulted claim. (USCA4 Appeal: 18-8, Doc. 32).
Briefing by Respondents followed as well as oral
argument. (USCA4 Appeal: 18-8, Doc. 32 and Doc. 53).
In its published opinion, the Court of Appeals
considered whether its decision to grant of a certificate
of appealability would bind the panel to find the
Martinez claim had “some merit.” The Fourth Circuit
resolved they had authority to reconsider the appellate
issue after allowing full briefing and argument:
“whether framed as rescinding the COA … or simply
denying the claim under Martinez, our ability to
reconsider the issue leads to the same result.” Owens,
967 F.3d at 425. It found nothing in Martinez to

17
“suggest[]” a ruling means “cause is predetermined as
soon as a COA is granted.” Id., at 426.
After review, the panel concluded that (1) trial
counsel was not deficient, and (2) that trial counsel
(and by extension their mental health experts) did not
miss any “red flags” to seek neuroimaging. Id., 426-27.
The panel resolved that counsel investigated and relied
on “their own team of experts—including a
neuropsychologist, forensic psychiatrist, and clinical
social worker—to take that information, find more of it,
and independently assess Owens’s mental condition.”
Id., at 426-27. The panel concluded that Owens could
not show “that reasonable jurists could debate whether
such a thorough investigation of his mental condition
fell short of an objective standard of reasonableness.”
Id., at 427. The panel reasoned that “[n]ot only did
counsel take extensive measures to investigate Owens’s
behavioral cognition for mitigating evidence, their
mental health experts reached conclusions that belied
the need for comprehensive neuroimaging—
which no expert suggested during Owens’s case until
his federal habeas proceedings.” Id. (emphasis in
original).
The Fourth Circuit also considered Owens’s
argument that counsel missed a “red flag” that should
have prompted “the need to obtain neuroimaging or
otherwise further investigate for evidence of structural
and functional brain damage,” but found the argument
lacking. The argument centered on a prescription for
Depakote, but “the record belies the premise that
Owens’s treatment with Depakote at Lieber was
indicative of seizure activity. Id., at 427. The panel

18
reviewed Dr. Wood’s report which asserted
“neuroimaging ‘should have at the very least been
considered,’ J.A. 4203, due to the ‘history
of seizure disorders’ indicated by Owens’s ‘treatment
with Depakote,’ J.A. 4202.” Id. However, Owens’s
treating physician “Dr. Cobb testified himself in
Owens’s third sentencing trial [that] he had prescribed
Depakote (in combination with Risperdal) only to help
stabilize Owens’s moods and ‘slow [his] brain down.’
J.A. 1594–95.” Id. In short, the record did not give rise
to a “red flag” as Owens suggested. Id.
Finally, like the district court, the Fourth Circuit
acknowledged that the defense had the comparable
Evans evidence, but wished to “take a more
conservative approach to the neurological mitigating
evidence.” Id., at 428. The court referenced sentencing
counsel Godfrey’s testimony that “avant-garde
diagnostic techniques wouldn’t play in front of a local
Greenville jury,” and also that counsel “was aware that
any evidence of brain damage … might well do more
harm than good for Owens’s mitigation case, because it
would bespeak his inability to become less violent.” Id.
The state court had found that strategy – challenged in
state collateral proceedings but abandoned in habeas –
was “professionally reasonable.” Id.
Owens petitioned for rehearing, providing with his
petition a one page, administrative form for institution
to institution movement from July 2006 that indicated
a “history” of seizures and a “referral” listing “seizure”
as proof that the court unreasonably viewed the whole
of the state record in making its determination.
(USCA4 Appeal: 18-8 Doc. 59-1). He did not claim the

19
page was a part of the record before the district court,
and did not claim that it was part of the Joint
Appendix. Further, he did not actually claim there
really was a seizure history in any of the extensive
medical records reviewed by the sentencing phase
experts, rather he argued:
Owens, of course, did not claim, nor did Drs.
Wood or Brawley require, that there be “a
diagnosis of seizure disorder in [Owens’s]
records.” There was, however, a history of
seizures reported in Respondents’ record of
Owen’s medical history.
(USCA4 Appeal: 18-8, Doc. 59-1 at 9). He admitted
Dr. Wood’s report reflected an assertion, “Mr. Owens
has a history of seizure disorders, for which he received
treatment with Depakote….” (USCA4 Appeal: 18-8,
Doc. 59-1 at 9). The petition was denied on August 18,
2020. (App. at 57).
STATEMENT OF FACTS
Owens killed Irene Graves while committing an
armed robbery of a convenience store with Andre
Golden. Ms. Graves was shot for not being able to open
the safe. The only money taken was $37.29 from the
register. Owens, 967 F.3d at 404. In the direct appeal
from the first trial, the Supreme Court of South
Carolina set out more specific facts of the crimes and
evidence adduced at trial:
During trial, the State introduced the Speedway
security video which recorded the robbery and
shooting. The video reveals two individuals
entered the store. One individual shot Graves.

20
Golden admitted he was one of the Speedway
robbers and claimed appellant was his
accomplice. He testified appellant shot Graves in
the head after she stated she could not open the
safe. No forensic evidence connected appellant to
the crime scene.
Nakeo Vance testified he, Golden, appellant, and
Lester Young planned to rob the Speedway and,
simultaneously, a nearby Waffle House. Golden
and appellant robbed the Speedway. Vance and
Young went to the Waffle House but did not
carry out the robbery. After the Speedway
shooting and robbery, Vance testified appellant
admitted he shot the store clerk.
Appellant’s girlfriend testified appellant told her
he had robbed a store and shot the clerk.
Detective Wood and Investigator Willis testified
appellant initially gave a written statement
denying involvement in the Speedway robbery
and shooting. According to both witnesses,
appellant later admitted he shot Graves.
Appellant maintained he was at home in bed at
the time of the Speedway robbery and shooting.
552 S.E.2d at 750.
That opinion also incorporated the graphic
confession to Owens’s murder of a cellmate while
awaiting sentencing.
In his confession, Owens
indicated that Christopher Lee began to taunt him for
being convicted. Owens stated he “hit him in the eye,”
and when he fell, Owens began to pummel him. Owens

21
then stabbed him in the eye with a pen, and “tried to
stab him in his chest, but the pen would not go in” so
he “stabbed him in his throat.” Owens then choked
him with a sheet, continued to beat him, began to
“pound[] his head against the floor,” then “stomped his
head and body,” “burned him around the eye and on the
left side of his hair,” and “rammed his head into the
wall.” Lee was still “moaning and breathing” so Owens
attacked again and “rammed the pen up his right
nostril,” “closed his left nostril,” and began choking him
again. When Owens “finally thought he was dead,”
Owens tossed the body on a bed, covered it, and “went
to sleep.” Id., 755.
REASONS WHY CERTIORARI SHOULD BE
DENIED
Plainly contrary to Owens’s argument, Martinez
does not guarantee an evidentiary hearing in district
court; much less could Martinez guarantee a petitioner
hearing by default merely by being granted an
opportunity for appellate review.
It would be
impossible to accept his position without grossly
expanding the scope of Martinez – action this Court has
solidly refused to take in other contexts.

22
I. This Court’s Martinez exception requirement
that a petitioner show a substantial claim
does not carry a guarantee of a hearing. In
fact, this Court set out that a state may rely on
the facts of record as one reason the exception
would not be over-burdensome and intrusive
to the states.
In Martinez, this Court set out that “the doctrine of
procedural default” is “designed to ensure that statecourt judgments are accorded the finality and respect
necessary to preserve the integrity of legal proceedings
within our system of federalism.” Martinez, 566 U.S.
at 9. See also Davila v. Davis, 137 S. Ct. 2058, 2064
(2017) (“The procedural default doctrine thus advances
the same comity, finality, and federalism interests
advanced by the exhaustion doctrine.”). However, the
Court carved out a narrow, equitable exception: a
petitioner could show cause to excuse the default if he
could show a “substantial” claim of ineffectiveassistance-of-trial-counsel was not raised due to
ineffective assistance of collateral counsel or lack of
counsel. Trevino v. Thaler, 569 U.S. 413, 423 (2013).3
The Court also provided, in balancing the equities, that
a state, which should ordinarily be able to rely on the
procedural default doctrine, could rely on the record:
The holding here ought not to put a significant
strain on state resources. When faced with the
question whether there is cause for an apparent
3 A petitioner also must show the state procedure funnels such
claims into collateral proceedings making the collateral
proceedings the first opportunity to present the claim. 569 U.S. at
423. South Carolina has that structure and that is not at issue.

23
default, a State may answer that the ineffectiveassistance-of-trial-counsel claim is
insubstantial, i.e., it does not have any merit or
that it is wholly without factual support, or that
the attorney in the initial-review collateral
proceeding did not perform below constitutional
standards.
Martinez, 566 U.S. at 15–16. There was no guarantee
of an evidentiary hearing. In fact, this Court
emphasized in Davila that part of the Court’s support
for establishing the “narrow exception” in the first
place was “the belief that its narrow exception was
unlikely to impose significant systemic costs.” Davila,
137 S. Ct. at 2068.
And, while true that the Court incorporated the
Strickland4 test into review of collateral counsel’s
performance, 566 U.S. at 14, this does not lead to a
presumption that an evidentiary hearing is necessary
in all cases. Strickland itself established this fact as to
Sixth Amendment ineffective assistance claims.
Strickland, 466 U.S. at 700 (“the prejudice question is
resolvable, and hence the ineffectiveness claim can be
rejected, without regard to the evidence presented at
the District Court hearing” and noting “[t]he state
courts properly concluded that the ineffectiveness claim
was meritless without holding an evidentiary
hearing.”). Consequently, there is no requirement of a
hearing for the Martinez equitable exception based on
4 Strickland v. Washington, 466 U.S. 668, 687 (984) (establishing
a petitioner claiming ineffective assistance of counsel in violation
of the Sixth Amendment must show deficient performance and
prejudice).

24
the Court having incorporated the Strickland test into
a non-constitutional context.
Suggestion to the contrary leads to troubling
inconsistency and would grossly expand Martinez to
ensure hearings in every case, especially every capital
case. This offends the very essence of AEDPA (the
Antiterrorism and Effective Death Penalty Act of 1996)
– to avoid the undeniable, universally recognized,
unreasonable delays in capital cases.
See, e.g.,
Woodford v. Garceau, 538 U.S. 202, 206 (2003)
(“Congress enacted AEDPA to reduce delays in the
execution of state and federal criminal sentences,
particularly in capital cases”). Owens actually proves
the point.
Here, Owens attempts to use the grant of
appellate review as a basis for a hearing not otherwise
warranted or allowed. He seeks an end-run, avoiding
his duty to show full cause to excuse a default and
avoiding the ordinary limitations on evidentiary
hearings. That route should be denied.
A. The Fourth Circuit correctly found the
substantial claim requirement may overlap
in theory with the certificate of
appealability standard, but the opportunity
granted differs.
The certificate is a
preliminary determination to grant
jurisdiction to review. It is the gateway to
appellate review, not a default to an
evidentiary hearing.
Owens’s conclusion that the initial certificate grant
guarantees additional proceedings in district court runs
counter to logic and established appellate principles.
It is well-settled that review for a certificate is not a

25
full review of the issue. See Buck v. Davis, 137 S.Ct.
759, 773 (2017) (the COA determination is made
“without ‘full consideration of the factual or legal
bases adduced in support of the claims.’ “) (quoting
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003))
(emphasis added). This Court has recognized that
appellate courts consider the certificate issue a
“threshold inquiry.” Slack v. McDaniel, 529 U.S. 473,
485 (2000). The Fourth Circuit, unlike Owens, was not
swayed by the label on the denial of relief – whether
reconsideration of certificate or opinion. Owens, 967
F.3d at 425-26. This makes sense. After all, the issue
is whether there is actual recourse in the law. The
state deserved to be heard, as well.
Martinez
guaranteed that right to respond, even setting out how
a state may respond. Martinez, 566 U.S. at 15–16.
Owens cannot circumvent that right secured by the
very precedent upon which he relies. The Court of
Appeals restriction of review to the appellant’s
preliminary brief is clear. Under its Local Rule 22(a),
the Fourth Circuit only allows a preliminary brief for
consideration. It expressly notes that it will “neither
require nor authorize a brief from” a responding party.
Local Rule 22(a)(1)(B).
Further, nothing prohibits the appellate court from
revisiting the certificate. Local Rule 22(a)(2)(B) allows
the certificate to be expanded, but also provides, if so
expanded, “the clerk shall enter a Final Briefing Order,
specifying the issue or issues” to be considered. So,
again, there is opportunity for response. But critically,
this shows the Court of Appeals has authority to define
its jurisdiction to consider the merits.

26
Further still, Owens’s position smacks of windfall
which this Court does not condone. See, e.g., Lafler v.
Cooper, 566 U.S. 156, 170 (2012) (“a remedy must
‘neutralize the taint’ of a constitutional violation, while
at the same time not grant a windfall to the defendant
or needlessly squander the considerable resources the
State properly invested in the criminal prosecution”)
(internal citation omitted). If the full review allowed
when jurisdiction attaches shows a factual or legal
issue not previously noted or revealed in the
preliminary brief submitted by the appellant, the Court
of Appeals should not be bound to grant a windfall.
The Eighth Circuit, in similar circumstances, reasoned
that it appeared “inconsistent” for an appellant to
request review for his procedural default arguments,
then contend he has proved his case by fiat. Dansby v.
Hobbs, 766 F.3d 809, 840 n. 4 (8th Cir. 2014). It
resolved that if the appellant was correct “that the
issuance of a COA must mean the constitutional claim
is substantial,” then, the court’s decision to deny relief
should be “construed as the revocation of the COA as to
those claims.” Id.
The Fourth Circuit similarly
followed this logical path. Owens cannot win by fiat
what he is not entitled to under the law. Further,
Owens is incorrect that only an evidentiary hearing is
the only sufficient method to make a Martinez showing.
Again, there are already rules in place, and they were
appropriately followed here.

27
B. An evidentiary hearing is not the only
mechanism for receiving new evidence in
district court. The Rules Governing Section
2254 Cases already provide a method to
submit materials in support of a Martinez
argument. Here, the District Court of
South Carolina allowed Owens to present
new material through affidavits.
As a practical matter, a Martinez argument is
generally premised at least on some facts outside the
state court record. Consequently, some new facts may
be received for the limited purpose of showing excuse
to avoid the default. But that does not mean an
evidentiary hearing is warranted. And to be clear, the
expansion of the record at issue, by documents or by
hearing, is tied to showing cause to excuse the default,
not proof of the underlying claim. See Fielder v.
Stevenson, 2013 WL 593657, *3 (D.S.C. Feb. 14, 2013)
(district court noted that although § 2254(e)(2) “sets
limits on a petitioner’s ability to expand the record in
a federal habeas proceeding[,] ... courts have held that
§ 2254(e)(2) does not ... constrain the court’s discretion
to expand the record to establish cause and prejudice to
excuse a petitioner’s procedural defaults.”) (citing
Cristin v. Brennan, 281 F.3d 404, 416 (3d Cir. 2002);
Buckman v. Hall, 2009 WL 204403 (D. Or. Jan. 23,
2009)). See also Runningeagle v. Ryan, 825 F.3d 970
(9th Cir. 2016) (finding district court granted
petitioner’s motion to expand the record on question of
Martinez cause to excuse his default and accepted “a
number of exhibits” but denied a hearing when the
documents “fully presented the relevant facts”)

28
(quoting Williams v. Woodford, 384 F.3d 567, 591 (9th
Cir. 2004)).
Not only do the rules allow document submissions,
Owens was allowed to submit affidavits in his case. He
obtained affidavits for his federal action and they were
accepted and considered. Rather than being denied the
safety of Martinez, Owens was allow to rely on its
largesse. He is not entitled to more.
Further, the habeas rules explicitly favor a more
stepped approach before granting a hearing. Rule 7 of
the Rules Governing Section 2254 Cases in the United
States District Courts provides for expansion of the
record “[i]f the petition is not dismissed,” and
specifically, that “[a]ffidavits may be considered as part
of the record.” Further, Rule 8(a) directs that the court
consider “any materials submitted under Rule 7 to
determine whether an evidentiary hearing is
warranted.” Whether an evidentiary hearing is
necessary and/or warranted for factual development
remains a discretionary decision. Here, the district
court did not deny a hearing without exercising its
discretion. It denied a hearing because, even taking his
allegations as true, Owens failed to show a substantial
claim in light of the entirety of the record.
C. 28 U.S.C. § 2254(e) limits development of
facts to claim involving innocence when it
is determined that the petitioner failed to
demonstrate diligence.
Evidentiary hearings to develop facts in habeas
actions are restricted by the limitations in 28 U.S.C.
§ 2254(e). Even if one considers that a hearing may be

29
held to further explore cause to excuse the default, see
Fielder, supra, development of facts for the underlying
claim may be limited by § 2254(e)(2).
This Court has previously held collateral
“[c]ounsel’s failure to investigate” where “a diligent
attorney would have done more,” satisfies “the opening
clause of § 2254(e)(2).” Williams v. Taylor, 529 U.S.
420 (2000). With the first portion of the section
applicable, the statutory provisions then limit a
petitioner to facts and claims that go to guilt, not
sentencing. Id. See also § 2254 (e)(2)(B). It is not clear
that Martinez changed that determination.5 In
Martinez, this Court considered a claim that could have
met this exception: “Martinez claimed his trial counsel
had been ineffective for failing to challenge the
prosecution’s evidence” including a failure challenge
“expert testimony explaining the victim’s recantations”
or other evidence concerning guilt. Martinez, 566 U.S.
at 7. It would not be inconsistent with Martinez or its
core logic to find the restriction still applicable. Accord
Davila, 137 S. Ct. at 2069 (“If a prisoner can establish
ineffective assistance of trial counsel under Martinez,
he ordinarily is entitled to a new trial.”). Owens
presents a sentencing issue. Owens cannot meet this
limitation if the limitation applies. See generally
Cullen v. Pinholster, 563 U.S. 170, 185 (2011) (“Section
2254(e)(2) imposes a limitation on the discretion of
federal habeas courts to take new evidence in an

5 In Ayestas v. Davis, 138 S.Ct. 1080, 1095 (2018), this Court
declined to consider the argument that an evidentiary hearing was
“never” available for an underlying claim when that argument was
not raised below. (emphasis in original).

30
evidentiary hearing.”). It is unlikely that § 2254
(e)(2)(B) can be considered merely superfluous. And
again, it is not absolute. § 2254 still allows a petitioner
a hearing on issues that meet that limitation, i.e., that
go to guilt. But here, the question could be determined
by limited expansion via affidavits. In review, the
claim of ineffective assistance simply could not be
substantial based on the already developed state
record.
D. Owens’s demand for additional habeas
proceedings “aggravate[s] the harm to
federalism that federal habeas review
necessarily causes,”6 and frustrates the
important need for finality.
“[T]he principle of finality ... is essential to the
operation of our criminal justice system” because
“[w]ithout finality, the criminal law is deprived of much
of its deterrent effect.” Teague v. Lane, 489 U.S. 288,
309 (1989). See also Mackey v. United States, 401 U.S.
667, 691 (1971) (Harlan, J., concurring in judgments in
part and dissenting in part) (“Finality in the criminal
law is an end which must always be kept in plain
view.”); Ryan v. Schad, 570 U.S. 521, 525 (2013)
(recognizing again a state’s interest in finality of its
criminal convictions).
The crime in this case occurred in November 1997.
Over the years, Owens has had three sentencing
proceedings, direct review by the South Carolina
Supreme Court, a state PCR hearing and appeal, and

6 Davila, 137 S. Ct. at 2069–70.

31
federal habeas review by a magistrate judge, the
district court and the Fourth Circuit. Further, he even
obtained a stay in federal habeas to pursue a second
application that was clearly untimely and improperly
successive. Martinez should not be used to allow
unnecessary and time-consuming additional
proceedings. Justice Scalia predicted in Martinez that:
… [I]n capital cases, [the majority’s decision will
effectively reduce the sentence, giving the
defendant as many more years to live, beyond
the lives of the innocent victims whose life he
snuffed out, as the process of federal habeas may
consume. I guarantee that an assertion of
ineffective assistance of trial counsel will be
made in all capital cases from this date on,
causing (because of today’s holding) execution of
the sentence to be deferred until either that
claim, or the claim that appointed counsel was
ineffective in failing to make that claim, has
worked its way through the federal system.
Martinez, 566 U.S. at 23 (Scalia, J., dissenting)
(emphasis in original).
Owens brings Justice Scalia’s guarantee to fruition.
To keep balance, this Court should not allow Martinez
to be expanded in scope or practice.
At any rate, there is little doubt that Owens has
been afforded ample opportunity to fairly contest his
convictions and sentence both in state and federal
courts. Finality must be reached at some point. Owens
is at that point.

32
II. Owens’s claims lack a factual basis. The state
court records show there is no merit t o h i s
argument that counsel missed “red flags” to
prompt the need for further development of
neuroimaging evidence.
Though Owens claims support in the equitable
exception in Martinez, there is little equitable about
allowing additional proceedings here. The state court
record in this particular case supports that Owens
failed to show trial counsel’s investigation was
anything other than reasonable. The record shows
counsel retained and relied upon three well-qualified
mental health experts.
Nothing suggests that
neuroimaging – and specifically neuroimaging from Dr.
Gur7 – must be obtained to ensure effective
representation. Further, the record contains relevant
state court findings that, by statute, must be presumed
correct. 28 U.S.C. § 2254(e)(1). It is relevant for this
issue to consider the finding that counsel strategically
and reasonably chose not to present the expert from a
prior proceeding with similar information.

7 Dr. Gur has appeared in a handful of South Carolina cases. His
methodology has been questioned where there was testimony that
it was not recognized as standard neuropsychological testing, and
where control group variations changed the results. See, for
example, Bixby v. Stirling, No. 4:17-CV-954-BHH, 2020 WL
1527061, at *10 (D.S.C. Mar. 31, 2020).

33
A. The state court record establishes that
counsel and his experts were aware of
imaging evidence from Dr. Evans, but did
not wish to present Dr. Evans for specific
credibility and reliability concerns. The
state court not only found the strategy
reasonable, Owens did not contest the
reasonableness of the finding in his habeas
petition.
Dr. Evans, a neuropsychologist, testified at the
second sentencing proceeding regarding Owens’s brain
dysfunction and relied on a type of imaging. In PCR,
Owens’s asserted counsel should have presented the
known evidence of “brain dysfunction” and other
difficulties. (J.A. 1977). Counsel did not want to
present the same information that had been
unsuccessful in two prior sentencing proceedings, and
strove to create a new theory of mitigation. (J.A. 2147).
Counsel testified Dr. Schwartz-Watts recommended Dr.
Brawley to give neuropsychological testing as Dr.
Brawley is more “conservative in her opinions.” She
testified Dr. Evans’s findings had been attacked in
previous capital cases, and a QEEG is not a study
generally accepted. (JA 2381-83). The state court
found that to be sound strategy. (J.A.3702). Owens
sidestepped that defeated claim in arguing that counsel
did not have a different kind of imaging – a kind not
requested by his experts. But again, his state court
record follows him. Owens cannot show deficient
performance because counsel relied upon and called in
sentencing three psychiatric/psychological experts who
did not indicate neuroimaging was necessary or even
desirable.

34
Further, though Owens promises to show prejudice
for his claim in future proceedings, (see Petition, 13-14
at n. 2), that misses the point. Prejudice must flow
from deficiency. Strickland, supra. Owens’s suggestion
that the deficiency is clear, (see Petition p. 28), lacks
force. At issue is the sentencing proceeding in
November 2006, and the PCR action that spanned 2009
to 2013. In 2011, one of Owens’s collateral counsel coauthored a law review article which outlines and
details the pros and cons of pursuing neuroimaging,
resolving that whether to “utilize neuroimaging in
preparation for the penalty phase of a capital trial does
not have a one-size-fits-all answer.” John H. Blume &
Emily C. Paavola, Life, Death, and Neuroimaging: The
Advantages and Disadvantages of the Defense’s Use of
Neuroimages in Capital Cases-Lessons from the Front,
62 MERCER L. REV. 909, 930-31 (2011). See also Stone
v. State, 798 S.E.2d 561, 576 (S.C. 2017) (finding the
ABA “Guidelines for the Appointment and Performance
of Defense Counsel in Death Penalty Cases, on which
Stone consistently relies in this appeal, do not require
neuropsychological testing and neuroimaging in every
case.”). By necessity, it can only be reasonable to
conclude PCR counsel was keenly aware of the
possibility, but not necessity, of neuroimaging, along
with its dangers. And, counsel at sentencing was
under no duty to search out and find specific experts
such as Dr. Gur or Dr. Wood. The defense experts
relied upon were credentialed, qualified and
knowledgeable.
There is no basis for finding
Strickland deficient performance.

35
B. The medical records reviewed by trial
counsel’s experts are a superior source to
determine whether Owens had been
diagnosed, treated, or had a history of
seizures, and those records do not support
such diagnosis or treatment. Thus, there
could be no missed “red flag” based on the
failure to discover a history that did not
exist.
Owens complains a “history of seizures” was a “red
flag” that was missed in the investigation. (Petition at
30). The lower federal courts have rightly rejected that
assertion. There was never a diagnosis of a seizure
disorder in his records. This is critical in assessing
Owens’s argument. It strains logic to rest a “red flag”
argument on a mistaken belief. Moreover, Owens does
not claim that he ever attempted to rely in district
court on the one-page document he submitted in his
petition for rehearing in the Court of Appeals. If it
shows critical “proof,” it is late coming. But, at the end
of the day, it cannot be critical, as he can show no
actual diagnosis or treatment in his medical records
that counsel or the experts missed. The note Owens
relies upon is not a medical record for diagnosis or
treatment. Rather, the note (which was not made until
July 2006), is a “medical clearance for transfer” for
movement from Lieber Correctional Institution to
Perry Correctional Institution (a facility that is closer
to the location where the resentencing proceeding
would be held). Dr. Schwartz-Watts, after careful
consideration of the actual medical records prior to and
through incarceration, did not find any diagnosis,
treatment or reported history of seizures, seizure

36
diagnosis, or care or treatment for seizures. (See J.A.
1609-10). A medical history is not created by error in
institutional movement records, and reliance on that
raises concerns as to credibility, accuracy and/or
adequacy of the opinion. It is inexplicable why Owens
seeks to rely on this isolated, unadorned notation of a
history and/or treatment for seizures, when no other
evidence (i.e., the actual medical records and treatment
testimony) supports that. It is not the district court or
the Fourth Circuit that ignored the evidence.
Lastly, a word about the possibility of showing
prejudice and the “elephant in the room” identified by
counsel – the Lee torture murder while waiting to be
sentenced for murder. Past brutality was definitely
going to be shown. Counsel wanted to show a changed
man. Proof of permanent damage could very well
undermine the carefully crafted defense. Could
Strickland prejudice be shown? Perhaps. But it is
highly unlikely in these circumstances.
The
aggravated nature of this crime, along with evidence of
another brutal murder committed, makes a prejudice
showing, at best, a dot on a very distant horizon. See
Wong v. Belmontes, 558 U.S. 15, 28 (2009) (noting
evidence of a separate murder for a penalty phase
being “the most powerful imaginable aggravating
evidence”).

37
CONCLUSION
For the foregoing reasons, this Court should deny
certiorari. Habeas review is a vehicle to address
“extreme malfunctions in the state criminal justice
system.” Harrington v. Richter, 562 U.S. 86 (2011). It
is not a vehicle to create them.
Respectfully Submitted,
ALAN WILSON
Attorney General of
South Carolina
DONALD J, ZELENKA
Deputy Attorney
General
J. ANTHONY MABRY
Senior Assistant
Attorney General

MELODY J. BROWN
Counsel of Record
Senior Assistant Deputy
Attorney General
Post Office Box 11549
Columbia, South Carolina
29211
(803) 734-6305
mbrown@scag.gov
Attorneys for Respondents

February 22, 2021

